                    AUDIT OF DETROIT JOB
                    CORPS CENTER EXPENSES

                    CONTRACT NUMBER 5-JC-959-26

                     JANUARY 31, 2000




HARPER, RAINS, STOKES & KNIGHT, P.A.
  CERTIFIED PUBLIC ACCOUNTANTS
      RIDGELAND, MISSISSIPPI
MEMORANDUM FOR:                  RAYMOND J. UHALDE
                                 Deputy Assistant Secretary
                                  for Employment and Training


FROM:                            JOHN J. GETEK
                                 Assistant Inspector General
                                   for Audit


SUBJECT:                         Detroit Job Corps Center Expenses
                                 For the period February 1, 1999 through January 31, 2000
                                 Final Audit Report No. 02-01-204-03-370


The attached final report is submitted for your resolution action. We request a response to this report
within 60 days. It is your office’s responsibility to transmit a copy of this report to Vinnell Corporation
officials. However, we are providing a courtesy copy directly to them. If you have any questions
concerning this report, please contact Richard H. Brooks, Regional Inspector General for Audit, at
(212) 337-2566.


Attachment


cc: Richard Trigg, Job Corps
    Brian Colan, Vinnell Corporation
                              AUDIT OF
                 DETROIT JOB CORPS CENTER EXPENSES

                   CONTRACT NUMBER 5-JC-959-26
               FEBRUARY 1, 1999 THROUGH JANUARY 31, 2000




                            FINAL
                            REPORT




This audit was performed by Harper, Rains, Stokes & Knight, P.A.,
CPAs, under contract to the Office of Inspector General, and by
acceptance, it becomes a report of the Office of Inspector General.



                                  Assistant Inspector General for Audit




                                           REPORT NO: 02-01-204-03-370
                                           DATE ISSUED: MARCH 22, 2001
                                               TABLE OF CONTENTS



ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

INTRODUCTION:

          BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

          AUDIT OBJECTIVE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

          AUDIT SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

INDEPENDENT AUDITORS’ REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

FINDING AND RECOMMENDATION

          FINANCIAL REPORTING . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

EXHIBITS

         A - CONSOLIDATED SCHEDULE OF NET CENTER OPERATION EXPENSE
          CATEGORIES FEBRUARY1, 1999 THROUGH JANUARY 31, 2000 . . . . . . . 10

         B - SCHEDULE OF JEFFERSON AND METRO EXPENSES AND COST
              OVERRUN FOR THE YEAR ENDED JANUARY 31, 1999 . . . . . . . . . . . . . 11

         C -SCHEDULE OF JEFFERSON AND METRO EXPENSES AND COST
             OVERRUN FOR THE YEAR ENDED JANUARY 31, 2000 . . . . . . . . . . . . . 12

          D -SCHEDULE OF METRO EXPENSES FOR THE YEAR ENDED
             THROUGH JANUARY 31, 2000 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

APPENDIX

          VINNELL RESPONSE TO DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . 14
                     ACRONYMS




DJCC      Detroit Job Corps Center


DOL       U. S. Department of Labor


ETA       Employment and Training Administration


FAR       Federal Acquisition Regulation


FY        Fiscal Year


OIG       Office of Inspector General


PRH       Job Corps Policy and Requirements Handbook


VINNELL   Vinnell Corporation




                             i
                          EXECUTIVE SUMMARY

Harper, Rains, Stokes & Knight, P.A., under contract to the Department of Labor (DOL), Office of
Inspector General (OIG), performed a financial audit of expenses claimed by Vinnell Corporation
(Vinnell) to operate the Detroit Job Corps Center (DJCC) under contract number
5-JC-959-26 for the period February 1, 1999 through January 31, 2000. This audit was requested by
the Office of Job Corps.

The audit objective was to determine if the Consolidated Schedule of Net Center Operation
Expense Categories reported by Vinnell for DJCC was presented fairly in accordance with Federal
requirements. A sub-objective of the audit was to determine the reason for the reported cost overruns
of $707,390 and $752,992 for the periods ended January 31, 2000 and
January 31, 1999, respectively.

Vinnell, a for-profit corporation, operates eight Job Corps centers located throughout the United
States. DOL awarded Vinnell a two-year contract with provisions for three additional option years to
operate DJCC for a total of $26,660,682 for the period of February 1, 1996 through January 31,
2001.

Audit Results

In our opinion, the Consolidated Schedule of Net Center Operation Expense Categories
(Exhibit A) presented fairly, the results of DJCC’s operations in accordance with applicable laws and
regulations for the period February 1, 1999 through January 31, 2000. Expenses of $6,648,591
claimed by Vinnell were reasonable, allocable, and allowable.

However, we noted material weaknesses for timely and accurate reporting of monthly expenses.
Vinnell did not report expenses of $1,003,487 on a timely basis and incurred a cost overrun of
$1,460,382 at DJCC. Expenses of $702,264 for the period February 1999 through November 1999
were not reported until December 1999. In addition, expenses of $301,223 for the period February
1998 through January 1999 were not reported until January 2000, when Vinnell adjusted the prior year
cumulative amount.

Moreover, Vinnell had a cumulative cost overrun of $1,460,382, consisting of $707,390
for the year ending January 31, 2000 and $752,992 for the year ending January 31, 1999. Untimely
reporting of expenses and overruns occurred because Vinnell was operating two sites, Jefferson and
Metro, without an increase in its budget. Since there was no additional budget authority to cover the
expenses of the Metro site, Vinnell accumulated expenses for the Metro site in a separate account until
it became aware that expenses were not reported and billed to Job Corps.


                                                   1
Recommendation

We recommend that the Assistant Secretary for Employment and Training ensure DJCC develop
controls to ensure all center expenses are reported timely and accurately.

Vinnell Response

The Vice President and CFO responded to our draft report on March 12, 2001. He concurred with
our findings and stated that controls were implemented to ensure costs will be reported in a timely and
accurate manner. The response has been incorporated in the report and is also included in its entirety
as an Appendix.




                                                    2
                                    INTRODUCTION


                                       Job Corps was established in 1964 and is presently authorized
       BACKGROUND                      under Title I, Subtitle C of the Workforce Investment Act of 1998.
                                       The overall purpose of the program is to provide economically
                                       disadvantaged youth aged 16 to 24 with the opportunity to
become more responsible, employable citizens. With annual funding over
$1 billion, Job Corps is the largest Federal youth employment and training program. Job Corps
provides total support for participants including basic education and vocational classes; dental, medical
and eye care; social skills training; meals; recreational activities; counseling; student leadership activities;
and job placement services.

Vinnell is a for-profit corporation located in Fairfax, Virginia. The education and training group operates
eight Job Corps centers located throughout the United States. DOL awarded Vinnell contract no. 5-
JC-959-26 for 2 years with provisions for three additional option years to operate DJCC. The
contract is for $26,660,682 and covers the period February 1, 1996 through
January 31, 2001. DJCC has a capacity for 202 students.

DJCC consisted of 2 sites, Jefferson and Metro, both located in Detroit, MI within 20 miles of each
other. The Jefferson site housed the classrooms, cafeteria and administration offices. The Metro site
consisted of student dormitories. The Metro site, when completed, will replace the current training
facility.

                                  Our objective was to determine if the Consolidated Schedule of
   AUDIT OBJECTIVE                Net Center Operation Expense Categories reported by Vinnell
                                  for DJCC was presented fairly in accordance with Federal
                                  requirements. A sub-objective of the audit was to determine the
                                  reason for reported cost overruns of $707,390 and $752,992 for
the periods ended January 31, 2000 and January 31, 1999 respectively.


                                     We audited expenses of $6,648,591 claimed under contract number
  AUDIT SCOPE AND                    5-JC-959-26 for the period February 1, 1999 through
   METHODOLOGY                       January 31, 2000. We also audited the cost overrun of $752,992
                                     for the period ended January 31, 1999.

We obtained an understanding of DJCC’s internal controls through inquiries with appropriate
personnel, inspection of relevant documentation, and observation of DJCC operations. The nature and
extent of our testing were based on the risk assessment.

                                                       3
We examined center operation expenses, public vouchers, general ledgers and supporting
documentation including vouchers and invoices. We used monetary unit sampling techniques to test
individual account transactions. Testing was expanded in accounts when errors exceeded the expected
error rate. We audited $1,346,905 or 20 percent of reported expenses of $6,648,591. Using a
combination of monetary unit sampling and judgmental sampling techniques, we examined $1,046,993
or 39 percent of reported non-personnel expense which totaled $2,711,365. In addition, using
primarily monetary unit sampling, we examined $299,912 or 8 percent of reported personnel expenses
totaling $3,937,226. We did not audit performance measurements of DJCC.

The audit was performed using criteria we considered relevant. Criteria included the Code of Federal
Regulations Title 20, the Federal contract cost principles set forth in the Federal Acquisition Regulation,
Part 31, and Job Corp’s Policy and Requirements Handbook (PRH). Also, all other requirements in
the current contract were used as criteria in evaluating the allowability of expenses claimed.

We conducted our audit in accordance with generally accepted auditing standards and standards
applicable to financial statements contained in Government Auditing Standards, issued by the
Comptroller General of the United States. We conducted fieldwork from October 2, 2000 to
December 21, 2000, at Vinnell Corporation’s headquarters located in Fairfax, VA. We held an exit
conference with Vinnell management on December 21, 2000.




                                                     4
Mr. Raymond J. Uhalde
Deputy Assistant Secretary for Employment and Training
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, D.C. 20210


                             INDEPENDENT AUDITORS’ REPORT

We audited the Consolidated Schedule of Net Center Operation Expense Categories (Exhibit A)
for the period February 1, 1999 through January 31, 2000, under DOL contract number
5-JC-959-26. The expenses claimed are the responsibility of Vinnell Corporation management. Our
responsibility is to express an opinion on the reported expenses based on our audit.

We conducted our audit in accordance with generally accepted auditing standards and Government
Auditing Standards issued by the Comptroller General of the United States. These standards require
that we plan and perform the audit to obtain reasonable assurance about whether reported expenses
are free of material misstatements. An audit includes examining, on a test basis, evidence supporting the
reported expenses. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall presentation of the reported expenses.
We believe our audit provides a reasonable basis for our opinion.

The Consolidated Schedule of Net Center Operation Expense Categories was prepared in
conformity with accounting practices prescribed by the Job Corps’ Policy and Requirements
Handbook, Chapter 9, Financial Management, which is a comprehensive basis of accounting other than
generally accepted accounting principles. Allowable expenses are established by Federal regulations.

Opinion on Financial Statement

In our opinion, the Consolidated Schedule of Net Center Operation Expense Categories presents
fairly, in all material respects, the results of the DJCC’s operations in accordance with applicable laws
and regulations for the period February 1, 1999 through January 31, 2000.




                                                     5
Report on Internal Control

In planning and performing our audit we considered Vinnell’s internal control over financial reporting in
order to determine our auditing procedures for the purpose of expressing our opinion on reported
expenses and not to provide assurances on the internal control over financial reporting. Our
consideration of the internal control over financial reporting would not necessarily disclose all matters in
the internal control over financial reporting that might be material weaknesses. However, we noted
certain matters involving the internal controls over financial reporting and its operation that we consider
to be a reportable condition. Reportable conditions involve matters coming to our attention relating to
significant deficiencies in the design or operation of the internal control over financial reporting that, in
our judgment, could adversely affect Vinnell Corporation’s ability to record, process, summarize, and
report financial data consistent with the assertions of management in the financial statements. The
reportable condition is described in the Finding and Recommendation section of this report.

Our consideration of the internal control over financial reporting would not necessarily disclose all
matters in the internal control over financial reporting that might be material weaknesses. A material
weakness is a condition in which the design or operation of one or more of the internal control
components does not reduce to a relatively low level the risk that misstatements in amounts that would
be material in relation to the financial statements being audited may occur and not be detected within a
timely period by employees in the normal course of performing their assigned functions. However, we
believe that the reportable condition described in the
Finding and Recommendation section of this report is a material weakness.

Report on Compliance with Laws and Regulations

Compliance with laws, regulations, and contract agreement provisions is the responsibility of Vinnell.
As part of obtaining reasonable assurance about whether reported expenses are free of material
misstatement, we performed tests of Vinnell’s compliance with certain provisions of laws, regulations,
and the contract. However, our objective was not to provide an opinion on overall compliance with
such provisions. Accordingly, we do not express such an opinion. The results of our tests disclosed
instances of noncompliance that are required to be reported under Government Auditing Standards
and which are described in the Finding and Recommendation section of this report.

Supplementary Information

Our audit was conducted for the purpose of expressing an opinion on the Consolidated Schedule of
Net Center Operation Expense Categories for the period February 1, 1999 through
January 31, 2000. The Schedule of Jefferson and Metro Expenses Cost Overrun for Year Ended
January 31, 1999 (Exhibit B), Schedule of Jefferson and Metro Expenses Cost Overrun for
Year Ended January 31, 2000 (Exhibit C) and Schedule of Metro Expenses for the Year Ended
January 31, 2001 are presented for purposes of providing additional analysis of expenses. Exhibits B,
C and D have been subjected to the auditing procedures applied in the audit of the Consolidated
                                                  6
Schedule of Net Center Operation Expense Categories and, in our opinion, are fairly stated in all
material respects in relation to the Consolidated Schedule of Net Center Operation Expense
Categories taken as a whole.

This report is intended solely for the information and use of Vinnell and ETA and is not intended to be
and should not be used by anyone other than these specified parties.




December 21, 2000




                                                    7
            FINDING AND RECOMMENDATION


 Financial Reporting                   Vinnell did not report expenses of $1,003,487 on a timely
                                       basis and incurred a cost overrun of $1,460,382 at DJCC.
                                       These conditions occurred because Vinnell did not have a
                                       budget to operate two sites, Jefferson and Metro, and
accumulated expenses for the Metro site in a separate account. Job Corps Policy and Requirements
Handbook, Chapter 9, Appendix 901, Section B, Item 3, states:

       Contract centers are required to report actual expenses on a monthly basis. For center
       financial management and Job Corps monitoring purposes it is important that analysis
       be performed on data that is as current as possible. Moreover, the availability of
       monthly cost data allows an analysis of trends which could not be identified through less
       frequent reporting.

Vinnell did not report expenses on a timely basis. Expenses of $702,264 (Exhibit D) to operate the
Metro site for the period February 1999 through November 1999 were not reported until December
1999. In addition, expenses of $301,223 to operate the Metro site for the period February 1998
through January 1999 were not reported until January 2000, when DJCC adjusted the prior year
cumulative amount.

Moreover, Vinnell had a cumulative cost overrun of $1,460,382, consisting of $707,390
(Exhibit C) for the year ending January 31, 2000 and $752,992 (Exhibit B) for the year ending January
31, 1999. We determined that the expenses were incurred as a result of operating two sites.

As background, the DJCC consisted of two sites, Jefferson and Metro, both located in Detroit,
Michigan and within 20 miles of each other. The Jefferson site housed the classrooms, cafeteria and
administration offices relating to the center. The Metro site consisted of student dormitories. The
Metro site, when completed, will replace the current training facility.

Untimely reporting of expenses and overruns occurred because Vinnell was operating two sites without
a budget increase. The original budget was based on the operation of only the Jefferson site. Since
there was no additional budget authority to cover expenses to operate two sites, Vinnell accumulated
expenses for the Metro site in a separate account until it became aware that Metro expenses were not
reported and billed to Job Corps.




                                                  8
Recommendation

We recommend that the Assistant Secretary for Employment and Training ensure DJCC develop
controls to ensure all center expenses are reported timely and accurately.

Vinnell Response

       Vinnell Corporation concurs with this finding and accepts full responsibility for these
       errors. It is , however, important to note that during the time frame in which these errors
       occurred the 2110 review function was in the process of being transitioned within our
       corporate office from one department to another. A newly created Job Corps finance
       position now performs this function. . . .

       Vinnell has implemented the following processes to ensure costs are reported in a timely
       and accurate manner:

       a.      A checklist was created. This requires centers to verify that costs reported on
              their 2110 matches the amounts recorded at the corporate office. . . .

       b.     A designated member of the corporate finance department reviews the completed
              checklist that is provided with the copy of the 2110 to the corporate office at the
              same time the report is submitted to DOL. . . .

       c.     Each center submits a report of current period costs and a month-to-month cost
              comparison to Vinnell’s corporate office by the 15th of the month. . . .




                                                9
                                                                   Exhibit A

                   Detroit Job Corps Center
Consolidated Schedule of Net Center Operation Expense Categories
           February 1, 1999 Through January 31, 2000

            Center Operation                Reported
            Expense Categories              Expenses

 Education Personnel                         $427,799
 Other Education                               38,591
 Vocational Personnel                         330,419
 Other Vocational                              48,238
 Social Skills Personnel                      897,348
 Other Social Skills                          139,278
 Food                                         328,821
 Clothing                                      34,192
 Support Service Personnel                    245,504
 Other Support Services                       132,686
 Medical/Dental Personnel                     292,737
 Other Medical/Dental                         109,186
 Administrative Personnel                     564,579
 Other Administration                         270,703
 Contractor’s G&A                             219,792
 Facility Maintenance Personnel               534,317
 Other Facility Maintenance                   209,470
 Security Personnel                           644,523
 Other Security                                42,460
 Communications                               185,865
 Utilities and Fuel                           594,252
 Insurance                                     10,132
 Motor Vehicle                                 21,232
 Travel and Training                           37,283
 Contractor’s Fee                             289,184
 Net Center Operations                      $6,648,591


                                  10
                                                                                                Exhibit B
                                        Detroit Job Corps Center
                      Schedule of Jefferson and Metro Expenses and Cost Overrun
                                  For the Year Ended January 31, 1999

          Center Operation                 Jefferson          Metro
         Expense Categories               Expenses           Expenses       Budget        Difference

Education Personnel                         $446,924         $               $434,820          $12,104
Other Education                               35,163                           39,743           (4,580)
Vocational Personnel                         338,158                          372,553          (34,395)
Other Vocational                              37,280                           34,380            2,900
Social Skills Personnel                      829,350                          843,762          (14,412)
Other Social Skills                          148,309                           92,041           56,268
Food                                         386,610                          242,742          143,868
Clothing                                      64,408                           84,495          (20,087)
Support Service Personnel                    230,037                          254,507          (24,470)
Other Support Services                       138,451                           85,642           52,809
Medical/Dental Personnel                     261,242                          279,844          (18,602)
Other Medical/Dental                          63,365                           80,830          (17,465)
Administrative Personnel                     506,901                          563,636          (56,735)
Other Administration                         761,935              8,164       292,908          477,191
Contractor’s G&A                             303,908             48,768       385,512          (32,836)
Facility Maintenance Personnel               227,874          115,266         274,142           68,998
Other Facility Maintenance                   178,888          123,431         231,260           71,059
Security Personnel                           287,028          202,051         488,364              715
Other Security                                14,897                           23,635           (8,738)
Communications                               123,650             61,661        94,147           91,164
Utilities and Fuel                           118,642          243,852         363,576           (1,082)
Insurance                                       3,766            15,050        11,355            7,461
Motor Vehicle                                 27,910                           36,954           (9,044)
Travel and Training                           88,353              2,366        79,818           10,901
Contractor’s Fee                             276,283                 0        276,283                  0
Net Center Operations                      $5,899,332        $820,609      $5,966,949        $752,9921




        1
            Includes $301,233 of expenses incurred during the period but not reported until January 2000
                                                        11
                                                                                            Exhibit C
                                        Detroit Job Corps Center
                      Schedule of Jefferson and Metro Expenses and Cost Overrun
                                  For the Year Ended January 31, 2000

          Center Operation               Jefferson          Metro
         Expense Categories             Expenses           Expenses      Budget       Difference

Education Personnel                       $450,916          $             $448,455          $2,461
Other Education                             37,106                          40,618          (3,512)
Vocational Personnel                       346,572                         384,655         (38,083)
Other Vocational                            39,241                          35,202           4,039
Social Skills Personnel                    933,700                         871,248          62,452
Other Social Skills                        134,683                          94,142          40,541
Food                                       304,519                         247,578          56,941
Clothing                                    35,376                          84,778         (49,402)
Support Service Personnel                  255,804                         262,322          (6,518)
Other Support Services                     132,731                          87,996          44,735
Medical/Dental Personnel                   264,877                         289,186         (24,309)
Other Medical/Dental                       145,007                          84,594          60,413
Administrative Personnel                   581,975                         581,823             152
Other Administration                       339,967              28,089     131,341         236,715
Contractor’s G&A                           323,886              45,363     361,764           7,485
Facility Maintenance Personnel             239,550          212,800        282,077         170,273
Other Facility Maintenance                 137,241              70,215     237,288         (29,832)
Security Personnel                         282,882          202,683        502,067         (16,502)
Other Security                              11,962                          24,275         (12,313)
Communications                             146,286              25,198      96,646          74,838
Utilities and Fuel                         316,273          253,467        373,042         196,698
Insurance                                   11,531                          11,674           (143)
Motor Vehicle                               26,378                          37,947         (11,569)
Travel and Training                         44,777                          81,299         (36,522)
Contractor’s Fee                           266,187               1,349     289,184         (21,648)
Net Center Operations                    $5,809,427        $839,164      $5,941,201       $707,390




                                                      12
                                                                             Exhibit D
                                  Detroit Job Corps Center
                                 Schedule of Metro Expenses
                            For the Year Ended January 31, 2000

                             Expenses
Center Operations     February 1999 to         Month               Month           Total
Expense Category       November 1999     December 1999       January 2000   Year to Date

  Salary / Wages              $20,676             $3,600           $2,725       $27,001

Security Manager                 8,475                                             8,475

    Security Staff            149,493              8,371            9,343       167,207

  Boiler Engineer             169,157             17,458           20,281       206,896

       Custodian                 5,903                              1,349          7,252

         Facility               53,450             7,663            9,102        70,215
    Maintenance

   Other Security               25,089             3,000                         28,089

 Communications                 19,090             3,277            2,832        25,199

     Utilities Fuel           212,778              7,584           33,104       253,466

 Contractor G&A                 38,153             2,927            4,284        45,364

             Total           $702,264            $53,880          $83,020      $839,164




                                            13
